                          Department of the Interior
                          Office of Inspector General




             AUDIT REPORT



               U.S. Fish and Wildlife Service
             Wildlife and Sport Fish Restoration
              Program Grants Awarded to the
                      State of Colorado,
                     Division of Wildlife,
          From July 1, 2005, Through June 30, 2007




Report No. R-GR-FWS-0009-2008              April 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                    April 1, 2009

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Colorado, Division of Wildlife, From July 1, 2005,
           Through June 30, 2007 (No. R-GR-FWS-0009-2008)

        This report presents the results of our audit of costs incurred by the State of Colorado
(State), Division of Wildlife (Division), under grants awarded by the U.S. Fish and Wildlife
Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $44
million on 128 grants that were open during State fiscal years (SFYs) ended June 30 of 2006 and
2007 (see Appendix 1). The audit also covered Division compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $160,329 from charges to the
grants for ineligible expenses and unsupported costs, including in-kind (non-cash) contributions.
We also found that the Division did not report all program income earned under the grants, did
not have adequate controls over equipment, and did not fully address grant objectives and
achievements in final performance reports.

        We provided a draft report to the FWS for a response. We summarized the Division and
FWS responses after each recommendation, as well as our comments on the responses. We list
the status of each recommendation in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
June 30, 2009. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Chris Krasowski, or me at 703–487–5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Division:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $44 million on the 128 grants that were open
during SFYs 2006 and 2007 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Division headquarters in Denver, CO, and
visited 6 service centers, 17 State Wildlife Areas (SWAs), 3 fish hatcheries, 1 marina, and 2
State Parks (see Appendix 2). We performed this audit to supplement, not replace, the audits
required by the Single Audit Act Amendments of 1996 and by Office of Management and
Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Division;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Division used hunting and fishing license revenues solely for
       administration of the Division; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Division operations.

Prior Audit Coverage
On March 8, 2005, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Colorado, Division of Wildlife, from July 1,
2001, through June 30, 2003” (No. R-GR-FWS-0003-2004). We followed up on the status of the
15 recommendations in the report and found that 11 recommendations were not considered
implemented. Although FWS Region 6 received documentation regarding implementation of
these recommendations, this information has not yet been received by the Department of Interior,
Office of the Assistant Secretary for Policy, Management and Budget, which is tracking the
implementations. Nevertheless, we found continuing problems with the Division’s controls over
personal property, which we discuss in the Findings and Recommendations section of this report.

We also reviewed Colorado’s Comprehensive Annual Financial Reports for SFYs 2006 and 2007
and the Single Audit Reports for SFYs 2006 and 2007. The reports contained findings related to
the payroll approval process and access controls. We examined these areas as part of our audit
and found no material exceptions.



                                                3
                                   Results of Audit

Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling
$160,329. We discuss the findings in more detail in the Findings and Recommendations section.

       Questioned Costs. We questioned $160,329 in costs and in-kind contributions claimed
       on four grants. These costs and contributions were ineligible charges to the grants or not
       supported by adequate documentation.

       Unreported Program Income. The Division did not report program income earned
       from selling Habitat Stamps to non-license holders. The Stamps are required to access
       lands managed with Program funds.

       Personal Property (Equipment) Management Not Adequate to Safeguard Property.
       Supervisors responsible for property informally reassigned equipment to staff in other
       offices but did not always conduct physical inventories. As a result, the Division is not
       adequately safeguarding property from loss, damage, or theft.

       Questionable Grant Compliance and Performance Reporting. The final performance
       reports for three grants did not fully address whether the Division accomplished the grant
       objectives.

Findings and Recommendations
A.     Questioned Costs — $160,329

       1. Unsupported Payments to a Subgrantee — $112,091

           The Division made payments to a subgrantee for design, engineering, construction,
           and re-vegetation work performed under Grant F-452-D-1. However, the Division
           was unable to document $224,180 in costs claimed by the subgrantee ($112,091
           federal share) by means of invoices or other documentation. The unsupported costs
           represent 93 percent of the entire grant award.

           The Code of Federal Regulations (50 C.F.R. § 80.15) requires all costs to be
           supported and substantiated by source documents or other records. It also states that
           allowable costs are limited to those which are necessary and reasonable for
           accomplishing approved project purposes.




                                                4
   This issue occurred because the Division did not obtain adequate documentation from
   the subgrantee to support costs claimed under the grant. As a result, we are
   questioning the federal share of the unsupported costs totaling $112,091.

   Recommendations

   We recommend that FWS:

   1. resolve the $112,091 in costs questioned as unsupported, and

   2. require the Division to maintain documentation to fully support costs claimed by
      subgrantees under the grants.

   Division Response

   The Division stated that it concurred with both recommendations and would resolve
   the unsupported cost by June 30, 2009.

   FWS Response

   FWS officials stated that the Division’s comments would be considered in the
   preparation of the corrective action plan.

   OIG Comments

   Based on the Division and FWS response, additional information is needed in the
   corrective action plan, including:

     •   the specific action(s) taken or planned to address the recommendations;

     •   titles of officials responsible for implementing the actions taken or planned;
         and

     •   verification that FWS headquarters officials reviewed and approved of actions
         taken or planned by the Division.

2. Ineligible and Unsupported Payments In Lieu of Taxes — $34,261

   The Division made payments in lieu of taxes (PILT) to counties in which it acquired
   land. These payments, charged to the Operations and Maintenance Grants (FW-46-
   M-8 and FW-46-M-7), offset property taxes that the counties lost due to their inability
   to tax State lands. We found that the Division charged a PILT payment totaling
   $1,401 (federal share $911) to Grant FW-46-M-8. However, because the land related
   to this payment was not purchased with Program funds, we could not establish a
   connection to the Operations and Maintenance Grant. This payment was therefore an
   ineligible cost under the grant.

                                        5
We reviewed two additional PILT payments of $30,363 (federal share $12,752),
charged to Grant FW-46-M-7, and $31,689 (federal share $20,598), charged to Grant
FW-46-M-8. Because the Division could not provide us with the funding source of
the lands related to those payments, we could not determine whether they were
appropriate operations and maintenance charges. Those costs are therefore
unsupported.

The Code of Federal Regulations (50 C.F.R. § 80.15) requires all costs to be
supported and substantiated by source documents or other records. It also states that
allowable costs are limited to those which are necessary and reasonable for
accomplishing approved project purposes.

These issues occurred because Division staff did not realize that PILT payments on
lands acquired with non-Program funds constituted ineligible costs under the grants.
Therefore, the Division did not have adequate procedures in place to review the
allowability of PILT expenditures charged to the Program grants. As a result, we are
questioning the federal share of unsupported and ineligible costs totaling $34,261, as
shown in Table 1.

          GRANT           QUESTIONED COSTS (FEDERAL SHARE)
         NUMBER           UNSUPPORTED INELIGIBLE TOTAL
       FW-46-M-7             $12,752         $0    $12,752
       FW-46-M-8              20,598        911     21,509
       TOTALS                $33,350      $911     $34,261

        Table 1. Federal Share of Questioned Costs Related to PILT

Recommendations

We recommend that FWS:

1. resolve the $34,261 in questioned costs, and

2. require the Division to establish procedures to review the allowability of PILT
   expenditures charged to the Program grants.

Division Response

The Division stated that it did not concur with both recommendations. In order to
facilitate resolution of the finding, the Division requested that the FWS provide
guidance, regulations, or statutes that support the finding for their review.

FWS Response

FWS officials stated that the Division’s comments would be considered in the
preparation of the corrective action plan.

                                     6
   OIG comments

   Based on the Division and FWS response, additional information is needed in the
   corrective action plan, including:

     •    the specific action(s) taken or planned to address the recommendations;

     •    targeted completion dates;

     •    titles of officials responsible for implementing the actions taken or planned;
          and

     •    verification that FWS headquarters officials reviewed and approved of actions
          taken or planned by the Division.

3. Ineligible and Unsupported In-Kind Contributions — $13,977

   According to Program requirements, States will be reimbursed up to 75 percent of
   costs incurred to perform projects under the grants. The remaining non-federal
   (“State’s matching”) share must be covered by the State. The State’s matching share
   of costs on Grant F-474-D-1, which funded the construction of instream habitat
   improvements, was partially composed of non-cash (“in-kind”) contributions. The in-
   kind contributions included the value of volunteer labor, donated supplies, and use of
   equipment owned by other entities. (The Division calculated the value of donated
   labor and equipment hours by multiplying labor and equipment rates by the hours
   donated.) We determined that a portion of the in-kind contributions claimed on this
   grant was unsupported or donated outside the grant period.

   Specifically, we found that the Division:

      •   did not maintain documentation to support labor and equipment rates used to
          value in-kind contributions received during the grant period;

      •   claimed the value of 216 hours that volunteers worked on dates prior to the
          grant period; and

      •   did not ensure that volunteers completed, certified, and obtained approval on
          timesheets in a manner similar to Division employees, as required by federal
          regulations.

   The C.F.R. provides the general documentation requirements for in-kind
   contributions as well as guidance on calculating their value. Under 2 C.F.R. § 225,
   Appendix A, C.1.j, which outlines basic guidelines on cost principles, costs must be
   adequately documented to be allowable under federal awards. According to 43
   C.F.R. § 12.64(a)(6), in-kind contributions counting towards satisfying a matching
   requirement must be verifiable from the records of grantees, and the records must

                                         7
show how the value placed on the in-kind contributions was derived. Furthermore,
the Special Grant Conditions of Grant F-474-D-1 stated “all costs approved herein
incurred by the State prior to the Effective Date are not eligible for reimbursement.”

This issue arose because the employees responsible for oversight of this grant were
not aware of the in-kind documentation requirements. As a result, the Division
overstated the value of its in-kind contributions on Grant F-474-D-1, resulting in
$13,977 in questioned costs (federal share), as outlined in Table 2.

                                                   QUESTIONED COSTS
             CLAIMED ALLOWABLE                          INELIGIBLE
              COSTS    COSTS               UNSUPPORTED   (OUT OF    TOTAL
                                                         PERIOD)
Federal
             $64,254         $50,276          $12,553        $1,424        $13,977
Share
State
              32,953          25,784            6,438           731          7,169
Share
TOTALS       $97,207         $76,060          $18,991        $2,155        $21,146

Table 2. Questioned Costs Related to In-Kind Contributions on Grant F-474-D-1

Recommendations

We recommend that FWS:

1. resolve the $13,977 in questioned costs; and

2. ensure the Division trains employees responsible for grant oversight, so that they
   maintain adequate records to support volunteer time and labor and equipment
   rates used to calculate the value of in-kind contributions.

Division Response

The Division stated that it concurred with both recommendations. The Division
submitted a grant amendment to resolve the questioned costs and increased
documentation requirements to subgrantees.

FWS Response

FWS officials stated that the Division’s comments would be considered in the
preparation of the corrective action plan.

OIG Comments

Based on the Division and FWS response, additional information is needed in the
corrective action plan, including:

                                       8
                 •   the specific action(s) taken or planned to address the recommendations;

                 •   targeted completion dates;

                 •   titles of officials responsible for implementing the actions taken or planned;
                     and

                 •   verification that FWS headquarters officials reviewed and approved of actions
                     taken or planned by the Division.

B.       Unreported Program Income

         The Division sells two types of Habitat Stamps that convey privileges to hunt, fish,
         and/or access SWAs, which are managed with FWS grant funds:

             •    Individuals who do not purchase a hunting or fishing license but wish to visit an
                  SWA must buy a Habitat Stamp for $10 per person. 2

             •    Hunters and anglers automatically purchase a Habitat Stamp when they buy a
                  hunting or fishing license. The cost is $5, and these Stamps are required on the
                  first two licenses purchased in a calendar year.

         Because Grants FW-46-M-7 and FW-46-M-8 funded operations and maintenance
         activities in each of Colorado’s SWAs, the $10 Habitat Stamps purchased apart from
         hunting and fishing licenses for access to SWAs constitute program income. However,
         the Division did not report this income to FWS, which amounted to $161,063 in
         SFY2006 and approximately $350,000 3 in SFY2007, for a total of $511,063. (We
         determined that revenue from the $5 Habitat Stamps purchased concurrently with hunting
         and fishing licenses should be considered license revenue, in accordance with 50 C.F.R. §
         80.4(a)(1), 4 rather than program income.)

         A number of federal requirements apply to program income:

             •    According to 43 C.F.R. § 12.65(b), program income consists of gross income
                  received by a grantee directly generated by a grant-supported activity, or earned
                  only as a result of the grant agreement during the grant period.




2
  Youths 18 and under, seniors 65 and over, the mobility impaired, military hospital patients, and Colorado residents
who are active duty military personnel stationed outside Colorado but on leave in the state are not required to
purchase a Habitat Stamp.
3
  The Division was unable to provide documentation supporting revenue earned from the sale of $10 Habitat Stamps
in FY2007. This figure is therefore an estimate based on discussions with the Division’s Fiscal Services Manager.
4
  According to 50 C.F.R. § 80.4(a)(1), license revenues include income from access and recreation fees imposed by
the State to hunt or fish for sport or recreation.

                                                         9
   •   Furthermore, 43 C.F.R. § 12.65(g) requires that program income be deducted
       from grant outlays, added to the funds committed to the grant agreement, or used
       to meet the cost sharing or matching requirement.

   •   The Fish and Wildlife Service Manual, in 522 FW 19, Exhibit 1, Section 1, states
       that “Examples of income that should be treated as program income include:
       …Fees charged by the State fish and wildlife agency…for use of facilities
       purchased or managed with Federal Assistance funds.”

This issue arose because the Division did not consider revenue from the sale of the $10
Habitat Stamps to be program income. Since the income was not deducted from
allowable grant costs to determine the net allowable costs of the federal and State shares,
the Division might have been reimbursed more than it should have been under these
grants.

Recommendations

We recommend that FWS:

1. determine whether the Division was reimbursed more than it should have been due to
   the $511,063 in unreported program income for SFYs 2006 and 2007, and if so,
   determine how to account for the excess reimbursement; and

2. ensure the Division reports program income generated from the sale of Habitat
   Stamps used solely for access to SWAs.

Division Response

The Division stated that it concurred with the recommendations and will credit back
program income by June 30, 2010.

FWS Response

FWS officials stated that the Division’s comments would be considered in the preparation
of the corrective action plan.

OIG Comments

Based on the Division and FWS response, additional information is needed in the
corrective action plan, including:

   • the specific action(s) taken or planned to address the recommendations;

   • titles of officials responsible for implementing the actions taken or planned; and



                                        10
        • verification that FWS headquarters officials reviewed and approved of actions
          taken or planned by the Division.

C.   Personal Property (Equipment) Management Not Adequate to Safeguard Property

     Federal regulations require each State to have adequate controls in place to maintain
     accountability for equipment. To test the Division’s controls, we reviewed its inventory
     management system and selected 87 pieces of equipment, valued at $1,856,470, for
     visual inspection. Our test showed that the Division did not sufficiently account for
     equipment purchased with Program funds and license revenue. For instance:

        •   We were unable to verify the existence or condition of 30 pieces of equipment
             (23 percent of the items selected for sampling, valued at $426,211), because these
            items were not maintained at the same location as the individuals responsible for
            them.

        •   Three individuals responsible for equipment informed us that they conducted
            annual inventories by telephone or email rather than through physical inspection
            due to the distances between their offices and the equipment’s location.

        •   One person responsible for over $18,000 in equipment remarked that he had not
            seen the equipment in at least 2 years because his staff used it primarily at another
            site.

     In conducting activities funded under the Acts, 50 C.F.R. § 80.18 places responsibility for
     the accountability and control of all assets with the State. The State must assure the
     assets serve the purpose for which they were acquired throughout their useful life.
     Furthermore, State of Colorado Fiscal Rule 1-10 notes that each State agency is
     responsible for properly accounting for, inventorying, and safeguarding equipment
     throughout its useful life.

     Because the Division assigned responsibility for pieces of equipment to supervisors who
     did not actually use them, some individuals allocated equipment to their staff stationed at
     other locations, without requiring them to sign a property receipt or a similar document.
     For example, two supervisors in the Southwest Regional Office in Durango informally
     reassigned equipment to employees in Gunnison and Montrose, over 100 miles away.
     Without maintaining records on the physical movement of property or instituting similar
     controls, the Division may not be able to safeguard equipment and ensure that it is used
     for authorized purposes.

     We reported a similar condition in our prior audit report (No. R-GR-FWS-0003-2004,
     Recommendation H) and recommended that the Division establish an accurate inventory
     database. Therefore, we are repeating the applicable recommendation from that report.
     This recommendation will be tracked under the resolution process for the prior audit
     report.


                                             11
     Repeat Recommendation

     We recommend that FWS require the Division to keep accurate inventory databases of
     property acquired with Wildlife and Sport Fish Restoration funds, license fees, or other
     funding sources and to update the inventory timely for additions, deletions, and location
     changes.

     Division Response

     The Division stated that it partially concurred with the recommendation.

     FWS Response

     FWS officials stated that the Division’s comments would be considered in the preparation
     of the corrective action plan.

     OIG Comments

     The implementation of this recommendation will be tracked under the prior audit report.
     Accordingly, FWS should send documentation regarding the implementation of this
     recommendation to the Department of the Interior, Office of the Assistant Secretary for
     Policy, Management and Budget.

D.   Questionable Grant Compliance and Performance Reporting

     States are required to submit performance reports to FWS after completion of each
     Program grant. These reports provide key information to help FWS ensure that States
     have spent funds appropriately and achieved project goals. We reviewed eight of the
     Division’s performance reports and found that three of them did not meet federal
     requirements.

     The final performance reports for Grants FW-46-M-7 and FW-46-M-8, which funded the
     operation and maintenance of SWAs:

        •   did not provide specific, quantified information on grant accomplishments; and

        •   were nearly identical even though each grant covered a variety of activities in two
            different SFYs.

     Furthermore, the final performance report for Grant F-161-R-16, which funded the
     installation of aquatic habitat treatments in the Upper Spinney SWA:

        •   primarily discussed work completed under prior grant segments but did not fully
            address any of the objectives from Grant F-161-R-16; and




                                             12
   •   indicated that the Division performed work at Terryall Creek SWA, even though
       such work fell outside the scope of the grant agreement.

According to 43 C.F.R. §§ 12.80(b)(2)(i) and (ii), performance reports for each grant
should contain a comparison of actual accomplishments to the objectives established for
the grant period and the reasons for slippage if the objectives were not met. Furthermore,
522 FW 7.C requires performance reports on operations and maintenance activities to
identify and quantify information on the public usage of SWAs, the effects on fish and
wildlife populations, and other benefits derived from the grant award. FWS guidance
also requires grantees to submit amendments to grant agreements and obtain the Regional
Director’s approval to add or delete grant projects (522 FW 1.8.A).

These issues arose because the Division did not have a procedure to ensure all
performance reports compared actual accomplishments to the grant objectives.
Furthermore, with regard to Grants FW-46-M-7 and FW-46-M-8, Division personnel did
not have a process in place to collect quantifiable data on operations and maintenance
activities occurring on SWAs throughout the State.

As a result, FWS cannot rely on the final performance reports of these three grants to
determine whether the Division effectively and appropriately spent $4,396,034 in federal
funds (Table 3). This amount represents 18 percent of all funding provided to the
Division through the Program grants in SFYs 2006 and 2007.

                                   NUMBER OF
                NUMBER OF                                              FEDERAL
  GRANT                          INADEQUATELY          CLAIMED
                  GRANT                                                 SHARE
  NUMBER                           ADDRESSED            COSTS
                OBJECTIVES                                             CLAIMED
                                   OBJECTIVES
FW-46-M-7              1                1             $3,987,119     $1,578,590
FW-46-M-8              1                1              4,282,795      2,647,075
F-161-R-16             9                9                227,159        170,369
TOTALS                11               11             $8,497,073     $4,396,034

  Table 3. Inadequately Addressed Grant Objectives and Related Claimed Costs

Recommendations

We recommend that FWS:

1. determine whether the Division accomplished the grant objectives and effectively
   spent funds from Grants FW-46-M-7, FW-46-M-8, and F-161-R-16, and if not,
   recover any funds not spent appropriately; and

2. direct the Division to collect quantifiable data on grant activities and compare actual
   accomplishments with grant objectives in final performance reports.



                                        13
Division Response

The Division stated that it concurred with the recommendations. The Division would
provide additional information to support the accomplishments of grant objectives by
June 30, 2009.

FWS Response

FWS officials stated that the Division’s comments would be considered in the preparation
of the corrective action plan.

OIG Comments

Based on the Division and FWS response, additional information is needed in the
corrective action plan, including:

   • the specific action(s) taken or planned to address the recommendations;

   • titles of officials responsible for implementing the actions taken or planned; and

   • verification that FWS headquarters officials reviewed and approved of actions
     taken or planned by the Division.




                                       14
                                                                     Appendix 1
                                                                        Page 1 of 5

                         STATE OF COLORADO
                         DIVISION OF WILDLIFE
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                 JULY 1, 2005, THROUGH JUNE 30, 2007

 GRANT        GRANT      CLAIMED          QUESTIONED COSTS (FEDERAL SHARE)
 NUMBER      AMOUNT       COSTS      UNSUPPORTED      INELIGIBLE       TOTAL
F-83-R-19    $629,470    $629,470
F-83-R-20     670,746     670,746
F-86-R-19    1,394,936   1,394,936
F-86-R-20    1,366,969   1,366,969
F-161-R-16    257,032     227,159
F-237-R-13    338,370     338,370
F-237-R-14    365,466     335,052
F-239-R-13    139,985     132,187
F-239-R-14    129,295     129,295
F-242-R-13    130,436     130,436
F-242-R-14     67,379      67,379
F-243-R-13    188,606     188,606
F-243-R-14    240,491     240,491
F-288-R-9     169,134     166,923
F-312-D-10   4,389,519   4,389,518
F-312-D-11   3,798,597   3,798,597
F-387-R-6     313,628     313,628
F-387-R-7     434,000     363,796
F-394-R-5     227,543     227,543
F-394-R-6     183,594     183,594
F-404-D-1      40,000      23,967
F-415-D-1     111,824     111,824
F-421-D-1      54,260           0
F-425-D-1     393,336           0
F-427-R-3     175,710     166,132
F-427-R-4     176,127     171,625
F-428-D-1     156,175     156,175




                                     15
                                                                      Appendix 1
                                                                         Page 2 of 5

                         STATE OF COLORADO
                         DIVISION OF WILDLIFE
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                 JULY 1, 2005, THROUGH JUNE 30, 2007

 GRANT        GRANT     CLAIMED            QUESTIONED COSTS (FEDERAL SHARE)
 NUMBER      AMOUNT      COSTS     UNSUPPORTED         INELIGIBLE       TOTAL
F-429-D-1    $339,534   $243,441
F-431-D-1     103,111     77,873
F-432-D-1     108,000     90,191
F-433-B-1     356,565    356,565
F-434-D-1     122,872    122,872
F-435-D-1     184,155    184,155
F-436-D-1*    280,200         0
F-437-B-1      14,578     14,578
F-438-B-1       5,000      2,354
F-439-B-1     554,700    554,700
F-440-D-1      58,159     21,065
F-441-L-1     666,675    666,625
F-442-D-1*     63,970     27,505
F-443-D-1      97,216     90,344
F-444-D-1     121,500    121,500
F-445-D-1      55,500     55,500
F-446-D-1*     49,068     47,877
F-447-D-1*    115,000         0
F-448-D-1*     55,225         0
F-449-B-1      14,759     14,759
F-450-B-1     178,100    178,100
F-451-D-1      40,000     40,000
F-452-D-1     240,000    240,000        $112,091                        $112,091
F-453-D-1     124,530    124,530
F-454-DB-1    377,392         0
F-455-D-1      69,000     69,000
F-456-B-1      35,885     35,885
F-457-B-1     150,675    150,675
F-458-B-1*    120,889     46,075
F-459-B-1       4,278      4,061
F-460-B-1*    122,507     81,014
F-461-D-1*    439,675         0


                                   16
                                                                      Appendix 1
                                                                        Page 3 of 5

                        STATE OF COLORADO
                        DIVISION OF WILDLIFE
             FINANCIAL SUMMARY OF REVIEW COVERAGE
                JULY 1, 2005, THROUGH JUNE 30, 2007

  GRANT       GRANT      CLAIMED            QUESTIONED COSTS (FEDERAL SHARE)
  NUMBER     AMOUNT       COSTS         UNSUPPORTED      INELIGIBLE      TOTAL
F-462-D-1*   $177,450        $0
F-463-D-1*     17,000     17,000
F-464-D-1*     27,000         0
F-465-D-1*     71,500         0
F-466-D-1*     53,500     53,008
F-467-D-1*     30,325         0
F-468-D-1*    240,000         0
F-469-B-1*     66,000         0
F-470-B-1*    210,438         0
F-471-B-1*    116,468         0
F-472-B-1*    120,208         0
F-473-D-1*     60,000     23,675
F-474-D-1*    118,000     97,207          $12,553          $1,424        $13,977
F-475-B-1     205,010    201,000
F-476-B-1      25,626     25,375
F-477-B-1      36,825     27,104
F-478-D-1*    125,000         0
F-480-B-1       6,465      6,465
F-481-B-1*     85,250      9,209
F-482-B-1*     30,576     25,143
F-483-B-1       4,510      4,510
F-485-B-1    1,340,000        0
F-486-B-1      33,250     33,250
F-487-B-1*     35,500      8,993
F-488-B-1*     13,319     13,319
F-489-D-1     112,000         0
F-490-B-1*     17,734     11,181
F-491-B-1*     89,160     89,160
F-492-B-1*     49,905         0
F-493-D-1     238,000         0
F-494-B-1     100,216         0
F-495-D-1     247,311         0


                                   17
                                                                         Appendix 1
                                                                           Page 4 of 5

                          STATE OF COLORADO
                          DIVISION OF WILDLIFE
               FINANCIAL SUMMARY OF REVIEW COVERAGE
                  JULY 1, 2005, THROUGH JUNE 30, 2007

                GRANT      CLAIMED             QUESTIONED COSTS (FEDERAL SHARE)
GRANT NUMBER
               AMOUNT       COSTS           UNSUPPORTED     INELIGIBLE      TOTAL
F-496-D-1*       $36,000         $0
F-497-B-1*       172,700          0
F-498-D-1        132,000          0
F-499-D-1        158,000          0
F-500-D-1         40,000          0
F-501-D-1         85,900          0
F-502-D-1         17,000          0
F-503-B-1*         8,930          0
F-504-D-1        195,000          0
F-505-B-1*        10,000          0
F-506-D-1         20,000          0
F-507-D-1        308,808          0
F-508-B-1*         6,000          0
FW-28-T-19     1,291,726   1,088,611
FW-28-T-20       973,309    897,509
FW-31-P-19     1,459,513   1,322,022
FW-31-P-20     1,155,833   1,092,403
FW-45-L-7        804,809    697,573
FW-45-L-8        794,455    702,914
FW-46-M-7      4,106,734   3,987,119          $12,752                       $12,752
FW-46-M-8      4,282,795   4,282,795           20,598           $911         21,509
FW-47-C-2        257,419    227,855
FW-47-C-3        268,548    268,548
W-148-E-19     1,484,272   2,566,282
W-148-E-20     1,051,767   1,051,767
W-182-R-6        852,245    678,302
W-182-R-7        938,685    895,620
W-183-R-6      1,277,316   1,173,292
W-183-R-7      1,342,086   1,342,086
W-185-R-5        446,831    400,564
W-185-R-6        448,482    448,482
W-186-E-1        499,000    499,000


                                       18
                                                                                                 Appendix 1
                                                                                                    Page 5 of 5

                                   STATE OF COLORADO
                                   DIVISION OF WILDLIFE
                        FINANCIAL SUMMARY OF REVIEW COVERAGE
                           JULY 1, 2005, THROUGH JUNE 30, 2007

                            GRANT           CLAIMED               QUESTIONED COSTS (FEDERAL SHARE)
   GRANT NUMBER
                           AMOUNT            COSTS           UNSUPPORTED           INELIGIBLE         TOTAL
  W-186-E-2*               $343,074            $58,685
  W-186-E-3                    7,500              3,828
  W-186-E-4                   24,454             24,432
  W-186-E-5                  277,600                  0
  W-187-E-1*                  65,000                  0
  TOTALS                $51,558,683        $43,940,950            $157,994             $2,335         $160,329

*Because grant periods did not always correspond with the State fiscal year, the Division of Wildlife had not
submitted SF-269s for these 36 grants for the period ending June 30, 2007. We therefore used the net payments
from the FWS iFAIMS to determine Claimed Costs.




                                                       19
                                    Appendix 2
                                      Page 1 of 2


   STATE OF COLORADO
   DIVISION OF WILDLIFE
       SITES VISITED
         Headquarters

             Denver

        Service Centers

            Durango
            Meeker
          Monte Vista
Northwest Region (Grand Junction)
             Salida
  Southwest Region (Durango)

      State Wildlife Areas

           63 Ranch
         Badger Basin
            Bel Aire
          Billy Creek
             Bodo
           Dan Noble
        Dry Creek Basin
         Garfield Creek
     Jerry Creek Reservoir
          Lake Avery
    Nelson/Prather Easement
           Oak Ridge
      Pastorius Reservoir
          Perins Peak
         Plateau Creek
       Spinney Mountain
          White River




               20
                                                         Appendix 2
                                                           Page 2 of 2

                   Fish Hatcheries

                   Mt. Shavano
J.W. Mumma Native Aquatic Species Restoration Facility
                    Rifle Falls

                 Other Sites Visited

                  Frisco Bay Marina
                  Navajo State Park
                 Rifle Gap State Park




                      21
                                                                          Appendix 3


                      STATE OF COLORADO
                     DIVISION OF WILDLIFE
      STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations           Status                       Action Required
A.1.1, A.1.2,     FWS acknowledges the        Additional information is needed in the
A.2.1, A.2.2,     recommendations but         corrective action plan, including: the
A.3.1, A.3.2,     additional information is   specific action(s) taken or planned to
B.1, B.2,         needed as outlined in the   address the recommendations, targeted
D.1 and D.2       “Action Required”           completion dates, titles of officials
                  column.                     responsible for implementing the actions
                                              taken or planned; and verification that
                                              FWS headquarters officials reviewed
                                              and approved of actions taken or
                                              planned by the Division. We will refer
                                              recommendations not resolved and/or
                                              implemented at the end of 90 days to
                                              (after June 30, 2009) to the Assistant
                                              Secretary for Policy, Management and
                                              Budget (PMB), for resolution and/or
                                              tracking of implementation.
C                 Repeat recommendation       Provide documentation regarding the
                  H from our prior report     implementation of this recommendation
                  (R-GR-FWS-0003-             to PMB.
                  2004) PMB considers
                  this resolved but not
                  implemented.




                                   22
  Report Fraud, Waste, Abuse,
     and Mismanagement
           Fraud, waste, and abuse in government
           concerns everyone: Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
          wasteful practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone:          24-Hour Toll Free             800-424-5081
                   Washington Metro Area         703-487-5435

By Fax:            703-487-5402

By Internet:       www.doioig.gov/hotline
